<html>
<title> - STATUS OF THE PUBLIC SAFETY BROADBAND NETWORK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







             STATUS OF THE PUBLIC SAFETY BROADBAND NETWORK

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2016

                               __________

                           Serial No. 114-112


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-943                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)




















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7

                               Witnesses

T.J. Kennedy, President, First Responder Network Authority.......     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................    57
David Furth, Deputy Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission......................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................    61
 
             STATUS OF THE PUBLIC SAFETY BROADBAND NETWORK

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2016

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Barton, 
Shimkus, Blackburn, Lance, Guthrie, Olson, Bilirakis, Johnson, 
Long, Ellmers, Collins, Cramer, Eshoo, Doyle, Welch, Yarmuth, 
Clarke, DeGette, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor for 
Communications and Technology; Rebecca Card, Assistant Press 
Secretary; Andy Duberstein, Deputy Press Secretary; Gene 
Fullano, Detailee, Telecom; David Redl, Counsel, Telecom; 
Charlotte Savercool, Professional Staff, Communications and 
Technology; Gregory Watson, Legislative Clerk, Communications 
and Technology; Christine Brennan, Minority Press Secretary; 
Jeff Carroll, Minority Staff Director; David Goldman, Minority 
Chief Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; Lori Maarbjerg, Minority FCC Detailee; and 
Ryan Skukowski, Minority Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. We will call to order the subcommittee on 
Communications and Technology for our hearing on Status of the 
Public Safety Broadband Network.
    This morning we convene to examine the progress in the 
deployment of the nationwide Public Safety Broadband Network, a 
mandate given to FirstNet by the Congress in the Middle Class 
Tax Relief and Job Creation Act of 2012 and for which FirstNet 
was created.
    With the January 13th release of the request for proposal 
to award a contract for the deployment and operation of the 
network, FirstNet has achieved its most crucial milestone to 
date and within the time frame promised by Chairman Sue 
Swenson. I commend Ms. Swenson, the FirstNet board, and the 
staff of FirstNet for reaching this milestone, especially given 
the time lost in FirstNet's early days when controversy hobbled 
its efforts.
    If FirstNet is able to stay the course to the timeline it 
has established for the RFP process, proposals will be due just 
one year after the United States Government Accountability 
Office released its report on FirstNet's progress in 
establishing the network. In that GAO report they observed that 
FirstNet faces a multitude of risks, significant challenges and 
difficult decisions in meeting its statutory responsibilities, 
including how to become a self-funding entity.
    Today's discussion with FirstNet will give us the chance to 
gain a better understanding of the RFP, what it means for our 
nation's first responders, and FirstNet's thoughts on how it 
envisions its future. To that end, we have begun to hear 
concerns from parties that are candidates to build FirstNet's 
network.
    Some have expressed concern with FirstNet's attempts to 
establish a private-public partnership for the deployment and 
operation of the network through a single contract that covers 
all the states and territories rather than a ``network of 
networks'' approach. FirstNet is asking one company to take on 
the obligations nationwide. This approach could make it tougher 
for small and regional companies to participate in FirstNet 
without partnering with one of the nationwide carriers.
    Others are concerned that FirstNet's RFP asks the winning 
bidder to take on the obligation to serve the needs of public 
safety, but does not provide an economic incentive to do so. In 
broad strokes, the RFP takes the approach that rather than 
FirstNet paying for the contractor's services, wireless 
providers will come to play in exchange for access to 
FirstNet's spectrum and the ability to charge public safety 
users subscription fees.
    The RFP also envisions grants of up to $6.5 billion in 
funding to support the build-out and operation of the network, 
but requires repayment of nearly 85 percent of that money in 
the form of sustainability payments to FirstNet. In short, it 
appears FirstNet is asking a wireless provider to take on the 
obligation of building a network to public safety 
specifications in exchange for a monopoly on public safety 
users and a zero interest loan.
    Others still have expressed concerns that this seems to be 
a rehash of the failed approach of the FCC's 2007 700 megahertz 
D block auction. Then, the FCC asked the wireless industry to 
pay $2 billion for a nationwide license that would come with an 
obligation to negotiate with, and serve the needs of, public 
safety. Even with the prospect of holding the D block license 
going forward as enticement, the wireless industry was not 
willing to put up the capital needed or build the network 
public safety was demanding.
    Nine years later, FirstNet is asking wireless providers to 
take similar terms without the enticement of a license. I hope 
that these concerns are misplaced, but there is a small but 
growing chorus asking why FirstNet believes that this time it 
will be different.
    The legislation that created FirstNet was not my preferred 
approach. I favored construction from the bottom up, not the 
top down. And while I take some comfort that FirstNet has 
chosen a public-private partnership as the vehicle to deploy 
the network, the concerns we are hearing are valid. But for 
better or worse, the RFP is in the field. The die is cast. 
Whether a business case can be made for what FirstNet is asking 
will be better understood in April when responses are due and 
proposals are submitted.
    So today is an opportunity for FirstNet to answer some of 
these questions, maybe assuage some of the fears, and to inform 
the committee of what the RFP means for the deployment of a 
public safety broadband network that reaches all corners of the 
United States, urban and rural.
    Finally, we will also hear from the FCC. The FCC plays a 
critical role in the state ``opt out'' provisions of the 
statute as it is charged with reviewing and approving a state's 
plan to deploy its own radio network. With the RFP issued and 
an award in the fourth quarter of 2016 anticipated, states will 
need to understand the process in order to make an informed 
decision on whether to accept FirstNet's plan or deploy on 
their own.
    As delay from the commission could frustrate deliberations 
of states deciding whether to opt out, I hope that when we 
gavel out today we will do so with an understanding of when the 
FCC will satisfy this statutory duty. I now recognize the vice 
chair of the subcommittee.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    This morning we convene to examine the progress in the 
deployment of the nationwide public safety broadband network. A 
mandate given to FirstNet by Congress in the Middle Class Tax 
Relief and Job Creation Act of 2012 and for which FirstNet was 
created.
    With the January 13th release of the Request For Proposal 
to award a contract for the deployment and operation of the 
network, FirstNet has achieved its most crucial milestone to 
date, and within the timeframe promised by Chairman Sue 
Swenson. I commend Ms. Swenson, the FirstNet Board and the 
staff of FirstNet for reaching this milestone--especially given 
the time lost in FirstNet's early days when controversy hobbled 
its efforts.
    If FirstNet is able to stay the course to the timeline it 
has established for the RFP process, proposals will be due just 
one year after the United States Government Accountability 
Office released its report on FirstNet's progress in 
establishing the network. In that report GAO observed that 
``FirstNet faces a multitude of risks, significant challenges, 
and difficult decisions in meeting its statutory 
responsibilities, including how to become a self-funding 
entity.''
    Today's discussion with FirstNet will give us the chance to 
gain a better understanding of the RFP, what it means for our 
nations' first responders, and FirstNet's thoughts on how it 
envisions its future. To that end, we have begun to hear 
concerns from parties that are candidates to build FirstNet's 
network.
    Some have expressed concern with FirstNet's attempt to 
establish a private-public partnership for the deployment and 
operation of the network through a single contract that covers 
all the states and territories. Rather than a ``network of 
networks'' approach, FirstNet is asking one company to take on 
the obligations nationwide. This approach could make it tougher 
for small and regional companies to participate in FirstNet 
without partnering with one of the nationwide carriers.
    Others are concerned that FirstNet's RFP asks the winning 
bidder to take on the obligation to serve the needs of public 
safety, but doesn't provide an economic incentive to do so. In 
broad strokes, the RFP take the approach that rather than 
FirstNet paying for the contractor's services, wireless 
providers will come to play in exchange for access to 
FirstNet's spectrum and the ability to charge public safety 
users subscription fees. The RFP also envisions grants of up to 
$6.5 billion in funding to support the build-out and operation 
of the network, but requires repayment of nearly 85 percent of 
that money in the form of ``sustainability payments'' to 
FirstNet. In short, it appears FirstNet is asking a wireless 
provider to take on the obligation of building a network to 
public safety specifications in exchange for a monopoly on 
public safety users and a zero interest loan.
    Others still have expressed concerns that this seems to be 
a rehash of the failed approach of the FCC's 2007 700 MHz D 
block auction. Then, the FCC asked the wireless industry to pay 
$2 billion for a nationwide license that would come with an 
obligation to negotiate with, and serve the needs of, public 
safety. Even with the prospect of holding the D block license 
going forward as enticement, the wireless industry was not 
willing to put up the capital needed or build the network 
public safety was demanding. Nine years later, FirstNet is 
asking wireless providers to take similar terms without the 
enticement of the license. I hope that these concerns are 
misplaced, but there is a small but growing chorus asking why 
FirstNet believes that this time will be different.
    The legislation that created FirstNet was not my preferred 
approach. I favored construction from the bottom up, not the 
top down. And while I take some comfort that FirstNet has 
chosen a public-private partnership as the vehicle to deploy 
the network, the concerns we are hearing are valid.
    But for better or worse, the RFP is in the field. The die 
is cast. Whether a business case can be made for what FirstNet 
is asking will be better understood in April when responses are 
due and proposals submitted. Today is an opportunity for 
FirstNet to answer some questions, maybe assuage some fears, 
and to inform the committee of what the RFP means for the 
deployment of a public safety broadband network that reaches 
all corners of the United States, urban and rural.
    Finally, we will also hear from the FCC. The FCC plays a 
critical role in the state ``opt out'' provisions of the 
statute as it is charged with reviewing and approving a state's 
plan to deploy its own radio network. With the RFP issued, and 
an award in the fourth quarter of 2016 anticipated, states will 
need to understand that process in order to make an informed 
decision on whether to accept FirstNet's plan or deploy on 
their own. As delay from the commission could frustrate 
deliberations of states deciding whether to opt out, I hope 
that when we gavel out today we will do so with an 
understanding of when the FCC will satisfy this statutory duty.

    Mr. Latta. Well, thank you, Mr. Chairman, and thank you for 
our witnesses for being here. Good to see you again.
    In 2012, Congress recognized the importance of public 
safety and emergency communications and established a 
nationwide public safety network to meet the needs of all 
Americans and our first responders. Since that time, this 
committee has long agreed that a reliable network is essential 
for first responders to facilitate their communication needs 
and support their everyday missions.
    Developing a nationwide interoperable network is a 
significant task, but if properly established would be vital to 
protecting the lives of the American people. Therefore, it is 
imperative that the implementation of FirstNet is successful. I 
am encouraged by the progress FirstNet has made since its 
creation, however, there are still many unanswered questions 
about the future of this network ranging from the inclusion of 
rural providers to the FCC's review process of the states' plan 
to build their own radio access networks.
    I hope today's hearing will be an opportunity to learn more 
about current developments and the next steps for FirstNet. I 
look forward to the witnesses' testimony today, Mr. Chairman, 
and I yield back.
    Mr. Walden. The gentleman yields back. The chair recognizes 
the gentlelady from California, the ranking member of the 
subcommittee, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. Thank you for convening 
this important hearing. It is an important time in the life of 
FirstNet and we welcome the witnesses and eager to hear from 
you.
    A few weeks ago I joined with the sheriff of Santa Cruz 
County at home to unveil the 21st Century Policing initiative 
which is designed to improve the public trust and safety in the 
communities that they serve. It is the first law enforcement 
agency in California to adopt the White House initiative, which 
I think really makes it a stand-out agency. It was a forward-
looking announcement of renewed commitment to stronger police-
community relations.
    And essential to the effort, the reason I raise it, is 
providing law enforcement and public safety officials with the 
tools and the resources they need to do their job. And of 
course this includes the deployment of the nationwide 
interoperable communications network for first responders, or 
FirstNet. So I know that the entire sheriff's department was 
eager to know where we are on our work, and they want to see it 
fully implemented and operational.
    So where do we stand? And I think that that is what we want 
to examine today. In California, there are more than 2,000 
public safety agencies and over 200,000 first responders. It is 
no wonder we are called the nation state. While FirstNet is a 
nationwide effort, its success really depends on local 
consultation with communities and, I think, the states, and I 
want to examine that in my questioning.
    And so I think the success really is going to depend on the 
consultation that takes place with both, and I know that over 
the course of nearly three years that FirstNet has traveled the 
country, met with public safety leaders, tribes, federal 
agencies and the industry, last month was really was the 
culmination of the investment in that time where the RFP 
established a framework and was put out.
    Now ultimately we all want to see the creation of a robust 
and reliable network that is going to eliminate the tragic 
communication failures on 9/11, but I think that success is 
also going to be measured by whether we integrate the network 
with NG911 where we ensure device competition and utilize 
strong security measures.
    In 2013, California received 15.3 million calls to 911, 
15.3 million calls, and 9.5 million were wireless. These calls 
were answered obviously by dedicated professionals located in 
450 public safety answering points, the PSAPs across the state. 
So as we move to an NG911 environment where call takers can 
receive text messages, photos and videos, it makes sense that 
this information can be seamlessly transmitted to the first 
responders headed to an emergency situation. That is all part 
of this network. It has to be.
    I have been a long time advocate for greater device 
competition. Now late last year I wrote to the FBI urging the 
agency to ensure that they engage in a forward-looking 
procurement of land mobile radios that does not restrict 
competition to brand name, proprietary features and standards 
that can only be met by one vendor. This is all in the interest 
of the taxpayer.
    And we need to ensure that first responders are equipped 
with state-of-the-art radios, and I think that FirstNet can 
learn from the FBI's failed acquisition of the LMR which was 
eventually struck down by the GAO last October, so there is a 
lot of there there to this.
    Finally, in order to prevent the breach of sensitive 
FirstNet data cybersecurity has to be a core focus, so I hope 
that you will address that issue in your testimony. The 
continuation of the unraveling of the OPM and the IRS and other 
agencies that have the massive security breaches should be 
instructive to FirstNet, because you are going to have to 
utilize the most innovative security technologies available.
    And I think that in doing so it will not only lessen the 
chance of a widespread breach and prevent disruption, but there 
is a word that is so operational in this and that is 
``confidence,'' confidence in the system by all the users.
    So I thank Mr. Kennedy and Mr. Furth for being here today. 
We look forward to asking you questions and look forward to 
hearing your testimony, and I yield back, Mr. Chairman.
    Mr. Walden. The gentlelady yields back. The chair 
recognizes the gentlelady from Tennessee for opening comments.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And I appreciate 
each of you for taking your time for preparing for being here 
and to work with us through this. As you know, it is not the 
first hearing that we have had and I am certain it will not be 
the last one that we are having. We all agree that we do need a 
national public safety network and we know that it is something 
that we still have some outstanding questions, some issues and 
some lack of agreement on.
    First of all, as I mentioned last June, and I am going to 
come back to this issue, looking at the redundancies and the 
ability for you to protect yourself from breaches and hackings. 
And we know that that exists. I think the possible hacking of 
the NASA network and what we have learned from that is of 
tremendous concern to us, and thereby it is of concern for what 
you are doing.
    When you talk about an enterprise system you have one set 
of expectations. When you talk about a closed system you are 
going to have an additional set of expectations and 
encryptions, and so let us delve into that a little bit as we 
approach this issue. Second thing, and the chairman has 
mentioned this, the opt-out process and the ability for states 
to control some of that. I think we have got to go in and look 
at that just a little bit.
    So we will discuss those further, and Mr. Chairman, I will 
yield the balance of my time back to you so we can move forward 
to their testimony.
    Mr. Walden. OK. The gentlelady yields back the balance of 
her time. We recognize the ranking member of the full committee 
now, the gentleman from New Jersey, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman and our ranking 
member, for holding this hearing, and thanks to Mr. Furth for 
being here, and welcome back, Mr. Kennedy.
    It was not many months ago that FirstNet was here to 
testify, but at the pace that FirstNet is moving a few months 
can be a lifetime. Since our last hearing in June, FirstNet has 
released its much anticipated request for proposal, and while 
government procurements do not usually keep people sitting on 
the edge of their seats this one is a big deal because it 
contains a road map to the future of communications for first 
responders.
    Back in New Jersey we know from experience how important it 
is that we complete this road map quickly. After we were struck 
by Hurricane Sandy, I heard from first responders about their 
difficulty communicating. I heard time and again how their 
radios were not interoperable, public safety officials from 
different communities could not coordinate because their radios 
could not talk to each other, and first responders could not 
call for help when they needed it. So this past September I 
hosted a forum in my congressional district with local 
officials and industry leaders to see the progress that has 
been made, and Mr. Kennedy joined us and provided valuable 
feedback. Thank you, T.J.
    Together we took a critical look at what worked and what 
did not work during the storm. We learned a lot. I incorporated 
many of these lessons into the Sandy Act that I recently 
introduced, and we also heard once again that interoperability 
was a big challenge.
    But this is why FirstNet is so important. FirstNet will 
help ensure that first responders across the country have the 
best, the most rugged communications equipment, and it will 
also make sure first responders can hear each other when they 
call for help.
    In New Jersey we are already seeing the fruits of this 
labor. We are the home to one of FirstNet's five early builder 
projects, ours is called JerseyNet, and these projects are 
already showing how this network can benefit first responders. 
I had the opportunity to see this equipment for myself at the 
forum and it is impressive and it will save lives.
    I am happy to say that JerseyNet was up and running when we 
were hit by the recent snowstorm that crippled the east coast 
last month. As large and devastating storms become more 
frequent because of climate change, we need FirstNet at full 
force across the country as soon as possible.
    So thanks again to our witnesses, and I yield the balance 
of my time to Mr. Doyle.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Chairman Walden and Ranking Member Eshoo for 
holding this hearing today. And thanks to Mr. Furth for being 
here. I'd also like to welcome back Mr. Kennedy.
    It was not many months ago that FirstNet was here to 
testify. But at the pace that FirstNet is moving, a few months 
can be a lifetime. Since our last hearing in June, FirstNet has 
released its much anticipated Request for Proposal. And while 
government procurements do not usually keep people sitting on 
the edge of their seats, this one is a big deal. Because it 
contains the roadmap to the future of communications for first 
responders.
    Back in New Jersey, we know from experience how important 
it is that we complete this roadmap quickly. After we were 
struck by Hurricane Sandy, I heard from first responders about 
their difficulty communicating. I heard time and again how 
their radios were not interoperable--public safety officials 
from different communities could not coordinate because their 
radios could not talk to each other. First responders could not 
call for help when they needed it.
    So this past September I hosted a forum with local 
officials and industry leaders to see the progress that has 
been made. Mr. Kennedy also joined us and provided valuable 
feedback--thank you T.J. Together, we took a critical look at 
what worked and what did not work during the storm. We learned 
a lot. I incorporated many of those lessons into the SANDy Act 
that I recently introduced. We also heard once again that 
interoperability was a big challenge.
    But this is why FirstNet is so important. FirstNet will 
help ensure that first responders across the country have the 
best, most rugged, communications equipment. And it will also 
make sure first responders can hear each other when they call 
for help.
    In New Jersey we are already seeing the fruits of this 
labor. We are the home to one of FirstNet's five Early Builder 
Projects--ours is called JerseyNet. These projects are already 
showing how this network can benefit first responders. I had 
the opportunity to see this equipment for myself at the forum. 
It is impressive and it will save lives.
    I am happy to say that JerseyNet was up and running when we 
were hit by the recent snowstorm that crippled the East Coast 
last month. As large and devastating storms become more 
frequent because of climate change, we need FirstNet at full 
force across the country as soon as possible.
    So thank you once again to our witnesses. And with that, I 
yield the balance of my time.

    Mr. Doyle. I want to thank Mr. Pallone for yielding to me, 
and thank you, Mr. Chairman, for holding this important 
hearing. I am glad that we are continuing our oversight of 
FirstNet. This year marks the 15th anniversary of the attacks 
on 9/11, and that terrible day is a constant reminder of why we 
need to make sure that FirstNet is successful.
    I am very disappointed that it has taken this long for us 
to address our first responders' pressing need for upgraded and 
interoperable communications system. FirstNet will play an 
integral role in bringing our first responders into the twenty-
first century, giving them access to high speed data, apps and 
a competitive market for devices.
    Everywhere in our economy we see how these advances have 
been leveraged for unprecedented improvements in coordination 
and communication. From Uber and Lyft to Waze and Twitter, 
smartphones are enabling unparalleled innovation at an 
unparalleled pace. My hope is that FirstNet will bring these 
same benefits to first responders and that the results will be 
a safer country for both our citizens and first responders 
alike. Thank you, and I yield back.
    Mr. Walden. The gentlemen yields back the balance of his 
time, and now we will go to our distinguished panel of 
witnesses. We appreciate you both being here today and the good 
work that you are doing out there for our first responders and 
trying to make all this work.
    So we will start with Mr. T.J. Kennedy who is the president 
of First Responder Network Authority. Good morning. Welcome 
back and we are glad to have you here.

STATEMENTS OF T.J. KENNEDY, PRESIDENT, FIRST RESPONDER NETWORK 
 AUTHORITY; AND, DAVID FURTH, DEPUTY CHIEF, PUBLIC SAFETY AND 
  HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION

                   STATEMENT OF T.J. KENNEDY

    Mr. Kennedy. Good morning. Thank you. Chairman Walden, 
Ranking Member Eshoo, and members of the subcommittee, thank 
you for inviting me to testify on behalf of the First Responder 
Network Authority. I welcome the opportunity to brief you on 
FirstNet's ongoing progress in facilitating the deployment of 
the first interoperable nationwide public safety broadband 
network that will serve our nation's first responders. It is 
also a pleasure to appear here today with Deputy Director of 
the FCC's Public Safety and Homeland Security Bureau, Mr. David 
Furth.
    FirstNet continues to take the responsibility of creating 
the nationwide public safety broadband network very seriously. 
The FirstNet board and executive management team are proud to 
be leading such an experienced, diverse and hardworking team 
that understands that when it comes to public safety failure is 
not an option. They are dedicated to delivering a network that 
our first responders will depend on into the future.
    We have learned as we have grown, and akin to every start-
up organization we have developed structure and procedures to 
improve the way that we do business. As mentioned the last time 
I was before this committee, we continue to do what we said we 
would do and remain on track in meeting our timelines. The most 
tangible example of this is the recent release of our 
objectives based RFP that ultimately will result in the 
selection of a partner or partners which will actually deploy 
and operate the nationwide public safety broadband network.
    The release of this RFP is the culmination of years of hard 
work comprising tens of thousands of working hours and more 
than a few all-nighters. It is the result of numerous RFIs, 
public notices on 64 different topics, a special notice in 
draft RFP documents, responding to over 650 questions from 
industry related to those documents, two different industry 
days, 55 state and territorial consultations, hundreds and 
hundreds of outreach events, conferences, meetings and public 
safety data input that came in from more than 15,700 public 
safety entities representing around 1.7 million public safety 
individuals.
    Nowhere else in government has there been the level of 
interaction and coordination between and among local, state, 
tribal, federal, and industry stakeholders to deploy such a 
network. This network has not yet been deployed not because of 
any lack of desire or need, but because it is extremely 
complex.
    Well, today I sit before you feeling optimistic that we are 
on the cusp of a successful public-private partnership to 
deploy a truly interoperable broadband communications network 
for public safety, informed by public safety and our other 
state, local, tribal, and federal stakeholders.
    This input from public safety across the country is an 
incredibly important effort and we have been able to draw from 
it and ultimately use it to develop performance based public 
safety-centric RFP. After all, this is public safety's network. 
Throughout the RFP process, we will select a private sector 
partner and together establish the nationwide network. 
Additionally, we will develop an open and competitive 
marketplace where public safety objectives will drive 
competition for industry to deliver equipment that public 
safety needs to fully utilize and leverage all the great 
innovation that the network will provide.
    FirstNet is dedicated to open standards for the network for 
applications and even the devices that run on it. Application 
of open standards policies ensures the widest opportunity for 
companies of all sizes to bring innovation and to bring new 
solutions and products to the market for use on the nationwide 
public safety broadband network.
    Through teaming and partnership opportunities, we believe 
that industry will be able to truly develop an innovative 
network that will not only be deployed in urban areas, but also 
available in rural America which is critical as it makes up the 
majority of land mass in the United States. We believe that 
rural telecommunications and infrastructure providers will be a 
key component of the network in rural America, which is why we 
made teaming with such providers an evaluation factor in the 
RFP.
    FirstNet understands the critical importance of rural 
coverage, and we believe the significant effort that FirstNet 
has undertaken to engage and encourage teaming and foster 
inclusion of these important entities can ensure the widest 
possible geographic coverage for the network overall.
    We expect our efforts in the RFP to achieve a win-win-win 
for public safety for states and for industry, and will create 
a viable public-private partnership that will provide all of us 
with the best opportunity to move forward quickly and do 
something that many people have felt was just too hard and 
complicated to achieve.
    The release of this RFP along with the substantial 
consultation efforts across the nation are significant 
accomplishments, but we have an enormous amount of work ahead 
of us in both of our core areas of focus. The first being to 
execute and complete the procurement process, the second being 
our ongoing important consultation with public safety across 
the country.
    Mr. Chairman, while this is not an easy task, I and our 
team are truly dedicated to the mission that Congress has given 
FirstNet on behalf of public safety, and I am honestly excited 
to come to work every morning to work on this amazing mission. 
I am confident reporting to you that our board of directors and 
the rest of the FirstNet staff are equally passionate about 
deploying this network for public safety.
    FirstNet is very fortunate to have attracted a talented 
group, and I am honored to be a part of this organization as we 
work towards that successful deployment of the FirstNet 
network. I applaud the leadership and guidance of the FirstNet 
board. Sue Swenson, our board chair, and the entire board have 
worked tirelessly to make sure that we ensure that public 
safety is the key focus of everything we do each day. Thank you 
very much.
    [The statement of Mr. Kennedy follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
    Mr. Walden. Thank you, Mr. Kennedy. We appreciate your good 
work and your testimony this morning.
    We now go to Mr. David Furth, the deputy chief, Public 
Safety and Homeland Security Bureau, Federal Communications 
Commission.
    Good morning and welcome. We look forward to your comments, 
sir. Is that on? Yes. It is push-to-talk technology.

                    STATEMENT OF DAVID FURTH

    Mr. Furth. Oh, yes. We are going to move past that 
sometime. Good morning, Chairman Walden, Ranking Member Eshoo 
and members of the subcommittee. Thank you for the opportunity 
to appear before you today to discuss the FCC's role in 
supporting FirstNet.
    Let me emphasize at the outset that the FCC is fully 
committed to the success of FirstNet's mission. My testimony 
today will focus on our actions to support FirstNet and to 
implement the tasks that the act has assigned to the 
Commission. Since the act's passage, we have taken significant 
and timely steps in this regard and have met each of the act's 
deadlines to date.
    For example, one of the FCC's first tasks was to establish 
the Technical Advisory Board for First Responder 
Interoperability, or Interoperability Board. The Commission 
established the board as directed, reviewed and approved the 
board's recommendations and provided those recommendations to 
FirstNet in 2012. The Commission also took prompt action in 
2012 as directed by the act to designate 22 megahertz of 
spectrum in the 700 megahertz band for FirstNet's use and 
issued FirstNet's spectrum license.
    Beyond these tasks, the Commission has worked to meet its 
statutory obligation to take all actions necessary to 
facilitate FirstNet's spectrum use. In 2013, the Commission 
adopted a Report and Order establishing basic technical rules 
for the FirstNet spectrum, providing regulatory certainty, and 
enabling prompt certification of equipment for the band.
    A current example of our work to facilitate FirstNet's 
spectrum use concerns the need to relocate a limited number of 
public safety narrowband incumbents that have been operating in 
FirstNet's portion of the band since before the Commission 
reorganized the spectrum in 2007. In October 2015, FirstNet 
informed the Commission that it intends to provide funding 
later this year to relocate these incumbents and requested that 
we condition the incumbent licenses to require their relocation 
from the FirstNet spectrum by mid-2017.
    We have sought public comment on this proposal and are 
currently considering those comments. We recognize that a 
prompt resolution of this issue will promote certainty for all 
interested parties.
    Another important responsibility that the Act assigns to 
the Commission is the initial review of state opt-out requests. 
Section 6302(e) of the act--and let me pause here. My written 
testimony inadvertently had a typo. It should read 6302(e) not 
6502(e). Section 6302(e) of the act provides that upon 
completion by FirstNet of the RFP process, FirstNet shall 
provide each state governor with a proposed plan for build-out 
of the radio access network, or RAN, in that state. Within 90 
days of receiving FirstNet's proposed state plan, each governor 
must elect whether to accept the FirstNet proposal or to opt 
out.
    A state that opts out will then have 180 days to develop an 
alternative plan and submit it to the Commission. For any opt-
out state, the act directs the Commission to apply a two-prong 
test in determining whether to approve or disapprove the 
alternative state plan. The act specifies that an alternative 
state plan must demonstrate, one, compliance with the minimum 
technical interoperability requirements developed by the 
Interoperability Board, and two, interoperability with the 
FirstNet network.
    We recognize the need to provide states and FirstNet with 
clear and timely guidance on the process that the Commission 
will use to receive, review and approve or disapprove 
alternative state plans as required by the act. Our goal is to 
have the details of this process finalized and in place in 
advance of the date that FirstNet delivers its proposed state 
plans to each of the state governors, which FirstNet estimates 
will occur in the second quarter of 2017.
    To that end and consistent with FirstNet's anticipated 
timeline, we intend to seek public comment in the near term on 
how to structure the process to ensure that the Commission 
fully carries out its statutory obligation. Beyond these 
specific examples we have been and will continue to be in 
regular contact with our FirstNet counterparts to consult and 
coordinate on issues as needed.
    We have also been working with a number of stakeholders 
including FirstNet to help transition the nation's 911 call 
center to Next Generation 911, so that NG911 and FirstNet can 
complement one another as integrated components of an end-to-
end public safety broadband ecosystem. While this transition is 
still in its early stages, planning from the start is critical 
to achieving these synergies and benefits.
    In conclusion, we are committed to working with FirstNet as 
well as with our other federal, state, local and tribal 
partners to achieve Congress's vision for a nationwide public 
safety broadband network. Thank you for your consideration and 
I look forward to any questions you may have.
    [The statement of Mr. Furth follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    Mr. Walden. Thank you very much, Mr. Furth. We appreciate 
the FCC's role in all of this as well.
    Mr. Kennedy, I will start off with the questions. The 
states are permitted to opt out and build their own radio 
access networks. Could you just very briefly explain how the 
statute treats revenue generated by an opt-out state on the 
state opt-out network?
    Mr. Kennedy. When it comes to state opt-out networks, they 
have the ability to leverage the spectrum as part of the 
covered leasing agreement that was laid out in the act itself. 
And for each state, what they have the ability to do is to make 
sure that they can cover the cost of the radio access network 
as per the state plan.
    As part of our legal interpretations leading up to the RFP 
itself, we tried to make sure we added clarity to this. And one 
of the things that we have laid out is that there is additional 
revenue above and beyond what it costs to deploy the state plan 
in that state that will have to come back into the network. It 
will not be able to be kept in the state beyond what is 
required to deploy the radio access network.
    Mr. Walden. All right. One of the most critical 
requirements of FirstNet is that it is nationwide in scope. My 
district is extremely rural. How does the RFP address the 
statutory requirement that the network cover rural America, and 
how do you envision the service being provided in the rural 
areas?
    Mr. Kennedy. So a couple of things that we did on rural is 
we wanted to ensure that rural is part of each phase of build-
out for the network. One of the things we heard during 
consultation is that in rural areas a lot of times they are 
left until the very end.
    Mr. Walden. Right.
    Mr. Kennedy. So as part of that we have put out in our 
draft RFP and in our final RFP that we expect rural milestones 
to be met at each phase of build-out. Because of the great 
feedback we received we actually increased that, and so 
actually by the end of phase 3 we are looking for 80 percent of 
those milestones to actually be met in rural America. So we 
believe we have taken that input from states and really tried 
to leverage the fact that we want that rural build-out during 
the entire build-out of the network.
    Mr. Walden. All right. And central to the value proposition 
underlying your proposal is the ability of the contractor to 
monetize excess network capacity. I recall during the debate in 
the subcommittee over reallocation of the D Block that public 
safety's position at that time was that it needed all 20 
megahertz for public safety services.
    Despite the growth of the use of high bandwidth services by 
public safety, how do you conclude that there is so much excess 
capacity available now that it will generate sufficient revenue 
to entice wireless providers to build your network?
    Mr. Kennedy. Twenty megahertz of a 700 megahertz spectrum 
is an extremely large swath and as you well know is quite 
valuable in the wireless industry here today. Just like 
Congressman Doyle mentioned during his opening statement, 
during big emergencies like 9/11, certainly leveraging all 20 
megahertz of that spectrum to be able to handle all the police 
officers, firefighters, paramedics and the EMTs that are 
responding to a massive incident could certainly leverage every 
single bit of that.
    But in most areas we really want to make sure that also we 
have a network that is built to the coverage and capacity to 
handle those huge emergencies and to do that that network has 
to be built to a significant size. As part of that the ongoing 
costs of operating that larger network are going to be more 
expensive, but we do believe that there will be a large swath 
of that spectrum available in the excess capacity on that 
radiating network to actually generate significant cash to both 
deploy and operate the network for public safety in a cost 
effective manner.
    Mr. Walden. Now the licenses have to be reauthorized every 
ten years or you have to come back, but your RFP calls for the 
contractors to put out a 25-year plan. Can you tell me how 
those two interact?
    Mr. Kennedy. Sure. As you well know in understanding the 
way the FCC works, every ten years those licenses have a 
certain number of rules to really be reallocated and re-upped 
every 10 years. We believe that a successful offerer who 
deploys on the schedule that we laid forward will certainly be 
meeting those particular requirements of the FCC for future 
renewals.
    Also on the 25-year time frame, we really wanted to make 
sure that we had a return on investment and certainty for the 
offerer. If we look at the wireless industry over the last 25 
years, it has gone from 1G to 4G LTE where we are today and it 
is really the overall history of wireless in America. So the 
next 25 years will bring a lot of innovation and a lot of 
changes, but we also wanted to ensure that public safety has 
this network for the long haul.
    Mr. Walden. In one of our first oversight hearings, a 
witness from the Commonwealth of Virginia discussed the 
budgetary challenges faced by state public safety entities 
across the U.S. He pointed out that because of these 
constraints only a subset of first responders currently enjoy 
cell service, and noted that if FirstNet's vision was premised 
on all first responders in the state having service there 
simply isn't enough funding to achieve this level of 
penetration. I would think this fiscal challenge is especially 
problematic with volunteer firefighting services which are 
particularly prevalent in rural areas.
    Is FirstNet envisioning volunteer firefighters nationwide 
using FirstNet, and what level of penetration do you anticipate 
and how does that factor into your economic analysis?
    Mr. Kennedy. We absolutely believe that volunteer 
firefighters, and for that matter volunteer EMS and other 
public safety professionals, will be on the network. We believe 
that they are excited to be able to leverage it going forward. 
Many of them today carry personal cell phones and other 
devices, but don't have the ability to communicate with other 
public safety professionals. We have ensured every step of the 
way that FirstNet has built into our network policies and 
procedures so far that volunteers will always have access and 
have the same kind of access as their professional brother in 
the public safety.
    Mr. Walden. Yes, I think their issue is just affordability 
of what that will be, and it is an unknown right now, right?
    Mr. Kennedy. It is an unknown, but we also think it will be 
very competitive with the commercial services that are out 
there today and that we think that public safety having the 
volunteer ability to get lower priced devices will also be 
something that will allow them to get access to it.
    Mr. Walden. Thank you. I turn now to the gentlelady from 
California.
    Ms. Eshoo. Thank you, Mr. Chairman, and thank you to both 
Mr. Kennedy and Mr. Furth for your testimony. I like hearing, 
Mr. Kennedy, that you can't wait to get to work in the morning. 
That is a pretty good sign to be excited about what you are 
doing.
    I want to go back to some of the issues that I raised in my 
opening statement. Of course the 911 centers are a central part 
of FirstNet's ecosystem and they are the nerve centers. And so 
I have four questions. I would like you to tell the 
subcommittee what steps you are taking to ensure that there 
will be full integration with the 911 centers and the benefits 
that come from that.
    To Mr. Furth, I would like you to address the issue of 
cybersecurity, because there is, I think it is part of the task 
force's responsibility--I think I am correct on that--and how 
you are addressing that. My third question, and I think it 
would go back to Mr. Kennedy, is the whole issue of competition 
and how that is actually going to be addressed. And I think 
that is three. I can't remember the fourth.
    Well, I think the security of the data that FirstNet is 
going to handle, it is not only public safety's information but 
it is also citizen information at the same time, and the other 
issue I want to raise is the role of the states. I am getting 
some feedback that it is kind of all or nothing at all; that 
FirstNet controls all of the dollars. Where is the incentive 
with the states?
    This is delicate. I am a believer in you have a 
relationship that isn't all that it should be in the beginning 
and then there is another layer that is added to it and another 
layer that is added to it and that can have an effect on the 
overall system. We are the United States. We have 50 states, 
and each state has different needs. And the chairman raised it, 
some issues about it.
    I think you need to unpack for the committee members 
exactly how it is going to work with the states. You control 
all the money. Are there any incentives that you offered to the 
states as you built this out with each one? And the whole issue 
of rural and urban is really very, very important, because the 
RFP has gone out to all of the major outfits and yet in 
broadband and in their own services they have trouble getting 
services to rural areas in our country.
    So is it all of a sudden because it is FirstNet that all of 
that goes away and all is going to be well? So if you could, 
between the two of you, comment on those four issues. Most of 
them are yours, Mr. Kennedy.
    Mr. Kennedy. Sure.
    Ms. Eshoo. Yes, thank you.
    Mr. Kennedy. I will take the first one and then I will 
defer to David on the second. So on integration with Next 
Generation 911, we have an amazing relationship and have been 
reaching out to all of the 911 associations such as APCO who is 
here in the room today, NENA, and other key associations that 
support the need of our dispatch communities around the 
country.
    Currently, what they do in 911 today and the ones who are 
already progressing to Next Gen 911 are very eager to make sure 
that they have the ability to take videos, texts and other 
things that will be coming in from citizens and to share that 
across FirstNet with public safety.
    What is great about FirstNet being a data network is we 
will have the ability to take a video, to take a photo and make 
sure that that is put in the hands of police officers and 
firefighters in the field, and also from the field that we will 
have the ability to share with dispatch, to share with other 
public safety officials key data coming out of the field.
    Ms. Eshoo. But let me just interrupt. That is a wonderful 
description of exactly what many do right now, but we want to 
make sure everyone does that and that they have the equipment 
and the standards. What, FirstNet sets those standards, and 
where is the competition with the devices? I think there are 
many things that are woven into each one of these portions of 
the overall net.
    Mr. Kennedy. There are. There is a number of elements. I am 
going to take the last element you mentioned on competition of 
devices. This is something squarely in FirstNet's camp. We have 
really been driving the open standards. We have been driving it 
at an international level, making sure that we follow 3GPP and 
the open international standards.
    We have also been driving in different committees all of 
the things that need to be done to make sure that we have 
competition and that we have multiple devices that will be 
available from multiple sources that will have band 14 and 
spectrum available in those devices to be able to operate and 
to give low cost in different options across the board of both 
commercial devices and hardened public safety devices. So we 
have very much been only trying to drive that going forward.
    When it comes to your first question of the different 
standards on Next Gen 911, there is still more work to be done 
there. At the same point, we are working very closely with our 
911 partners to make sure that all of the intersections of 
where 911 is going to intersect with FirstNet that that 
integration is built into what we do with the FirstNet network. 
And we are also leveraging our labs at PSCR in Boulder, our 
Public Safety Communication Research Labs, to make sure that we 
are looking at the different elements of 911 and where the 
intersections with FirstNet will occur.
    Ms. Eshoo. What about the states?
    Mr. Kennedy. When it comes to the states, one of the things 
that we have done and we have learned to your point that 
multilayered approach, is we have gone out and met on 
consultations. We have realized that there are multiple layers 
of how we need to interact with states and interact with 
locals, through the state and along with the state, to make 
sure that they have lots of opportunity to your point local 
control.
    We have actually brought in our Public Safety Advisory 
Committee, the PSAC, which makes up 42 different state and 
local and public safety associations, to take on this exact 
issue of local control and to work with different associations 
across the country and come back with advice for FirstNet on 
how best to address the local control issue and meet the needs 
of each state.
    I want to defer to David on the cyber question.
    Mr. Furth. If we have time. I know I can answer it, but I 
will defer to you.
    Mr. Walden. Why don't you go very quickly because I know it 
is a concern of other members on the committee.
    Mr. Furth. If I could just very briefly address the 
cybersecurity question that you asked. You mentioned the task 
force that the FCC convened. We convened a task force about a 
year ago on PSAP optimization in the NG911 environment, and one 
of the working groups in that task force was specifically 
assigned to look at cybersecurity for PSAPs. We recognize that 
this a critical issue and we are concerned that many PSAPs 
particularly smaller ones around the country are not adequately 
prepared.
    That task force has just come back to us as of last week 
with a series of very detailed recommendations on how to move 
forward with cybersecurity for PSAPs in the NG world, and we 
are going to be working with FirstNet to make sure that those 
recommendations sync up with what FirstNet is doing so that 
both ends of the communications chain are secure from cyber 
attack.
    Mr. Walden. All right, thank you. We will now turn to the 
gentlelady from Tennessee, Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I appreciate 
Ms. Eshoo bringing up the cyber issue. She has focused on this 
repeatedly, and I want to pick up right there and kind of go to 
the next part of this question on cyber.
    We will start there, Mr. Kennedy, with you, and look at 
FirstNet's system design and talk a little bit about where you 
are in that system design, just not the recommendations that 
you have just said you all now have a set of recommendations, 
but I want to know where you are and then kind of what you see 
as a timeline on this.
    Mr. Kennedy. So, a couple of things. We actually have put 
out a public notice in some key RFI documents related to cyber. 
We received comments back from industry and from states and 
public safety this past fall. We have incorporated those into 
our final section in the RFP on cybersecurity. As part of that 
we have always envisioned that we are building in security from 
day one. We are not just tacking it on at the end. We also want 
to leverage the best practices from the private sector as well 
as within government to make sure that we are taking more----
    Mrs. Blackburn. OK, let us stop right there----
    Mr. Kennedy. Sure.
    Mrs. Blackburn [continuing]. Because government networks, 
obviously, OPM breach, NASA, they are not secure. And whether 
it is an encryption issue, whatever, we know that there are 
some gaping holes, if you will, that are there. So I don't 
think that is the standard that we want to hold up, so I will 
yield my time back to you to continue.
    Mr. Kennedy. So on that front we are really looking for 
industry as part of the responses to this RFP to bring forward 
private sector best practices as part of their solution that 
will be judged against our standards that we have put forward 
in Section J of the RFP to be able to make sure that they meet 
the highest standards that public safety will need to meet, and 
make sure that we ensure the security of all the data related 
to emergency medical services, law enforcement, and the fact 
that we are going to have all this data operating across the 
FirstNet network.
    Mrs. Blackburn. OK. We are going to be watching that very 
closely. We fully understand and appreciate the need for the 
data security. We also understand that you have data transfer 
that needs to be considered. All of these things are going to 
have to be taken one at a time. We appreciate that and we just 
work forward to working with you on it.
    Mr. Furth, I want to come back to you on this opt-out 
process. You talked about that in your testimony a little bit. 
In 2013, in response to a question for the record, the Public 
Safety Bureau stated, and I am going to quote, ``the Commission 
will coordinate closely with FirstNet to ensure that the review 
process by the FCC of state alternative plans is conducted in a 
timely manner, consistent with FirstNet's deployment plans and 
associated time frames.''
    OK, so here we are in 2016 and it sounds like you are going 
to do a rulemaking to establish a process; is that correct?
    Mr. Furth. That is correct.
    Mrs. Blackburn. OK. Now looking at timelines again, how 
long do these rulemakings generally take with the FCC, and do 
you think there is any validity to the concerns that many 
people have that the FCC is slow-walking, intentionally slow-
walking this process in order to frustrate some of the state 
opt-outs?
    Mr. Furth. Thank you for the question. We certainly have no 
intention to slow-walk this process. We think it is very 
important that the states, at the point where they are going to 
have to make that decision about whether to opt out, understand 
what the process will be that the Commission will use to review 
those requests.
    And we have, in fact, as we indicated in 2013, been working 
with FirstNet and consulting with them on their timeline. The 
critical point in their timeline is that they are saying at 
this point once the RFP process is completed that the state 
plans will be delivered to the states in the second quarter of 
2017.
    So that is our target. We have to have our rules in place 
before then, and therefore we are not going to delay. We want 
to initiate a rulemaking in the near term to make sure that we 
have the flexibility that we need to get those rules done in a 
timely manner.
    And you asked about the speed with which the Commission 
conducts rulemakings. The Commission is capable of conducting 
rulemaking very quickly, and particularly on an issue like this 
we are really focused on one piece of the statute and the two-
prong test that the statute gave us for how we are going to 
administer this review process of the opt-out requests.
    So our focus is going to be on that statute and how we 
implement it, and that is why we intend in the near term to get 
public comment so that we can reach a timely conclusion on that 
in time for the process that FirstNet will undertake in 2017.
    Mrs. Blackburn. OK. Just bear in mind, to us it seems like 
it is taking you a mighty long time to get around to doing it.
    Mr. Furth. Well, I would actually suggest that this is the 
right time to do it because now we have the RFP. It would have 
been difficult, I think, to initiate this rulemaking before the 
RFP had been released by FirstNet, because that is one of the 
things that those who look at our proposals are going to need 
to make reference to, and we think it will actually build a 
better record to put this rulemaking out now that the RFP has 
been released by FirstNet. So we think the timing for starting 
this is right. Thank you.
    Mrs. Blackburn. OK, yield back.
    Mr. Walden. The gentlelady yields back. The chair 
recognizes the gentleman from Pennsylvania, Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman. Mr. Kennedy, Mr. Furth, 
welcome. We appreciate you both being here.
    In my district, the city of Pittsburgh, as well as 
Philadelphia and 11 other major cities around the country, 
first responders will need to give back spectrum located in the 
T-band that they currently use for communications. What 
assurances can you both provide me that the first responders in 
these affected cities that are losing access to this band that 
will not affect their ability to accomplish their mission? Do 
either of you see any potential problems with this transition?
    Mr. Furth. Let me take that since that provision in the 
statute is really the Commission's responsibility to implement. 
And the statute specifically gives us a long timeline to deal 
with the T-band issue, the initial deadline to reallocate 
spectrum and begin the auction process, which is not the 
relocation process but simply the beginning of the process for 
setting up an auction. That deadline is 2021, so that is still 
5 years away.
    Nonetheless, we are very cognizant of the situation that T-
band licensees are in, and at the point where we look at how to 
implement the statute we want to make very sure that there is 
no loss of service, no loss of continuity in whatever 
transition mechanism there is to ensure that the citizens of 
those 11 markets, those 11 communities, are not left without 
public safety services as a result of that transition.
    Mr. Doyle. Thank you. Mr. Kennedy, in creating a 
sustainable funding stream for FirstNet, the private partner 
you choose will need to monetize your 20 megahertz of spectrum 
in band 14. First, how soon will the spectrum be available once 
FirstNet chooses a private partner; second, what steps has 
FirstNet taken toward ensuring that consumer devices will 
include band 14 chipsets; and finally, based on the previous 
examples of this type of spectrum becoming available, how long 
do you think it would take for devices and services using this 
band to become available?
    Mr. Kennedy. One of the things we have laid out is an 
aggressive plan to work with the incumbents that are on band 14 
today to make sure that they are moved to other narrow band 
public safety spectrum. And we have been talking to all of 
them. A few of them have already moved off proactively. All of 
them have been under notice for a number of years that this was 
going to happen, and so they are very much prepared to go 
there.
    We are working with them to have all that spectrum cleared 
before we actually get through to the state plan process, and 
we are trying to move very quickly to make sure that that 
happens by the middle of 2017. This would allow a partner to be 
able to have encumbered spectrum shortly after contract award 
and be able to deploy the network knowing that that spectrum 
was immediately available, which we think is a very important 
piece.
    When it comes to having devices, one of the things that we 
have written into the RFP is we are asking proposers to come 
forward with an entire ecosystem of band 14 devices that they 
are going to proffer as part of their solution. And because 
industry itself has the greatest amount of size and scope that 
will be able to drive device manufacturers to include band 14 
in their devices, they can actually drive a bigger ecosystem 
than public safety can alone.
    Mr. Doyle. Thank you. Mr. Kennedy, some of the critics of 
FirstNet have repeatedly said that only the largest wireless 
telecommunication companies would be capable of taking on a 
project of this size. When you were crafting the RFP what steps 
did you take to broaden the group of entities capable of 
partnering with FirstNet, and do you believe that there are 
entities out there other than the large telcos interested and 
able to fulfill the terms of the RFP?
    Mr. Kennedy. That is a great question. One of the things we 
did through all of the different RFIs and our consultation with 
states and with industry was try to come up with a way that was 
driven by objectives, the objective for public safety in a 
performance-based acquisition. This is different than the 
typical 10,000 lines of specific requirements that we often see 
in government procurements. The reasons we did that was to 
drive more competition and not less. We wanted to have an 
objective-based procurement that allowed everybody to address 
the procurement in a different way as long as they were meeting 
all of the objectives of public safety. We believe that this 
will actually drive greater competition and not less 
competition at the end of the day.
    We also did a number of notices on different sizes and 
scopes, whether we should look at this regionally or nationally 
and what was the best approach to that. After that we went 
forward with a nationwide objective-driven RFP that we believe 
through teaming will make sure that it brings the greatest 
amount of opportunity to the table for the different offerers 
that come together.
    We also believe that there are other folks outside of the 
major telco providers that could bid and win this opportunity 
and we believe there is interest out there. We believe that 
there are multiple ways that folks could come forward with the 
different assets that have been put forward in this partnership 
that could actually make this work in a way that will be very 
beneficial to public safety.
    Mr. Doyle. Thank you. I see I just have one second. With 
regards to the opt-out issue do you have any thoughts on how 
many states you think will opt out?
    Mr. Furth. No. We will be prepared for any contingency in 
terms of the number of states that opt out.
    Mr. Doyle. OK. Mr. Chairman, thank you.
    Mr. Walden. You are welcome. We will now go to the former 
chairman of the committee, Mr. Barton.
    Mr. Barton. Thank you, Chairman. Mr. Kennedy, have you ever 
heard of a radio talk show host in Texas named John Grady 
Wells?
    Mr. Kennedy. I have not.
    Mr. Barton. You sound exactly like him.
    Mr. Kennedy. I will be Googling him right after this.
    Mr. Barton. If you close your eyes it sounds like I am on 
the John Grady Wells Show or I am listening to the John Grady 
Wells Show. That was not a trick question.
    Mr. Walden. It is how we are helping pay for FirstNet, 
moonlighting.
    Mr. Barton. He is very, very conservative. Anyway, my first 
question to you Mr. Kennedy would be, and it was just asked in 
a different way. How many states have indicated that they want 
to opt out and create their own network?
    Mr. Kennedy. So on this question, the timing of when the 
opt-in/opt-out decision actually occurs is post our acquisition 
and the contract award and post a state getting a state plan.
    The reality is having the ability to compare how good that 
state plan meets the needs of the state is one of the key 
considerations that will need to be looked by each and every 
state when they look at this consideration for opt-in and opt-
out. We also believe that it is going to be incumbent on those 
offerers who are coming forward to bring a very compelling 
offering, because they will want to bring in as many states as 
possible to make this a very successful solution for public 
safety and to make it so that there is less integration or risk 
in the overall project.
    As part of that they are going to have to have a very 
compelling offering that goes into each of these state plans, 
and with that we will then have a feeling for who would 
consider opt-in, who would consider opt-out. We do believe 
though that it is important that we have been continuing to 
build through our consultation, open dialogue, open 
relationships, open discussions about the benefits of opt-in, 
about the benefits of the FirstNet network overall, and at the 
same point preserving the rights for states to go through that 
process and to work forward.
    Mr. Barton. Well, my guess is, and it is purely a guess, is 
that there will be a number of states. Some of them are pretty 
obvious--Alaska, Hawaii--because they are almost self-contained 
by geography and conditions. And then there are some that have 
a history of independence. Just out of the blue, Texas, we have 
our own electric grid.
    So I would assume that there will be a number and that is 
something that I would hope that there is some planning, 
because even if you opt out to have your own state network it 
certainly has to be interoperable within the state with 
everyone, and it has to be interoperable with the other 
networks and the national network. Has there been any 
interaction with Texas so far about that? I know that Harris 
County has a local network that we tried to make sure was 
acceptable.
    Mr. Kennedy. We actually just held our most recent board 
meeting down in Houston. And the FirstNet team and the board 
visited the Harris County project again and had great 
interaction with the team and the significant progress that 
they have made on that early builder project and the lessons 
learned, both key lessons learned that were in the spectrum 
lease agreement, but also the unofficial lessons learned from 
deploying that network so far and the growing pains as they 
work through continuing to grow that network.
    On a lot of discussions with the State of Texas who are 
involved from the SMLA perspective but also with the 
consultations throughout Texas, as you know the thousands of 
public safety agencies in Texas, a huge amount of key 
constituents for Texas to visit with. Todd Early and his team, 
and Skylor Hearn from the Texas Department of Public Safety 
have been crisscrossing the State. They have a tremendous team. 
They have actually built an online web portal and key training 
for public safety responders throughout the state to make sure 
they are informing them about the network.
    We have been working very closely with them and even met 
with key officials in Austin to make sure that they understand 
both opt-in and opt-out and all the opportunities that will 
become available with having a public safety network for first 
responders in Texas.
    Mr. Barton. OK, thank you. I guess my last question and 
kind of the $64 question which is hard to answer: what is your 
gut reaction when we will actually have FirstNet up and 
running? Not just talking about it and making significant 
progress and moving forward and all this, but actually have a 
network that is functional and that is usable?
    Mr. Kennedy. It is going to occur after the opt-in and opt-
out decision. And after a key opt-out and opt-in decisions we 
will have the ability to move forward with deployments in 
states. Right now we are anticipating that those state plans, 
much of what was mentioned by David earlier today, will be 
occurring in mid-2017 and that they will be coming out after 
this contract award. We then have that 90-day period for opt-in 
and opt-out.
    So as early as late 2017, the network would start being 
deployed. Operations will depend on the size of a state, even 
the size of the region and so forth for how that will be 
deployed. In some cases that will take a number of years, but 
trying to make sure that we get the network up and running as 
quick as possible.
    Mr. Barton. So in the reasonable future. We are not talking 
10 years, we are talking----
    Mr. Kennedy. No, no, very reasonable future.
    Mr. Barton. OK, thank you. Thank you, Mr. Chairman.
    Mr. Walden. Gentlemen, I appreciate your comments. We will 
now go to the gentlelady from Colorado, Ms. DeGette, for 
questions.
    Ms. DeGette. Thank you, Mr. Chairman. Well, I know that 
some of my questions have been asked but they haven't been 
asked by everybody, but I am still not going to ask them. There 
was one topic I wanted to talk to you about though, and that is 
the topic, Mr. Kennedy, we talked about last year when you were 
here when we discussed NIST, which of course has facilities in 
Colorado.
    At that time you told the subcommittee that FirstNet had 
just started to work with NIST on a number of technical 
questions. I was wondering if you could give me an update on 
that work and let me know how that has helped inform the recent 
RFP.
    Mr. Kennedy. The work being done by the Public Safety 
Communications Research Lab at NIST has been invaluable to 
FirstNet. We have a very close relationship, and actually our 
technical team is also headquartered in Boulder so that they 
can have close proximity to the NIST team. This team is working 
on key issues like priority and preemption. They have been 
literally testing and loading networks to make sure that the 
priority features and these preemptive features that are going 
to be critical to this public safety network to always have the 
on-demand resources they need for big emergencies has come 
because of the tremendous work by PSCR.
    Another key element is looking at standards work. PSCR is 
part of all the third generation partnership project standards 
meetings. These are critical, because we need to not only build 
to a nationwide standard, but also to international standards 
to make sure that we keep open networks and open standards and 
also have a variety in ecosystem of devices and equipment that 
will be cost effective. That work is very much being driven by 
NIST.
    A third element really goes into cybersecurity and making 
sure that we look at the best practices and that they are also 
doing key testing. And so, tremendous amount of work being done 
by NIST and PSCR.
    Lastly, they are actually setting up right now task teams 
with our Public Safety Advisory Committee, who is going to be 
working on advising PSCR and NIST on leveraging the R&D money 
that is in our act to make sure that we look at key interfacing 
of LTE going forward and what we are doing in LMR systems and 
also making sure that we meet all the mission-critical needs 
for public safety. So it is a tremendous ongoing relationship 
and we couldn't be more pleased with the work by the PSCR team.
    Ms. DeGette. Thanks. I guess I will yield back. Thank you.
    Mr. Walden. We now turn to Mr. Latta, the vice chair of the 
subcommittee for questions.
    Mr. Latta. Well, thanks, Mr. Chairman, and thanks again for 
having today's hearing. And gentlemen, thanks very much for 
being with us today. We have had multiple hearings on this 
issue and it is very, very important. And I know that I was 
contacted early on in the process, and there is a question out 
there about making sure that the states were being heard.
    And so I think that what we are hearing today and also from 
your testimony, Mr. Kennedy, I see you stated that you received 
data from over 1,160 public safety entities representing 1.6 
million public safety personnel from 54 states and territories 
and seven federal agencies. And that is important, because 
again, that is one of the things that the folks out there 
wanted to make sure that they were being heard as this was 
being put together, since it is vital not only to the folks 
back home for making sure that all their security needs are 
being taken care of, or when there is an emergency or 
ambulances are being called, but that is across the entire 
nation. And also it is important that as we go forward that we 
keep that up.
    And if I could, I would like to start, Mr. Kennedy, with a 
question. I appreciate again FirstNet's inclusion of the 
partnerships with the rural telecom providers within the 
proposal evaluation criteria, thereby attempting to ensure 
small rural carriers are not left out of the FirstNet solution. 
And that is important to a lot of us because my district is 
very--like a lot of the people here, I have very, very, very 
rural areas in my district and a few go to urban. And so we 
want to make sure that everyone that is out there has that 
ability for those small FirstNet tests for that solution.
    Can you tell me how FirstNet will define the rural telecom 
provider?
    Mr. Kennedy. Sure. The rural telecom providers actually 
includes all of those that are providing telecommunication 
services in rural areas. And we know that some of them do and 
don't provide wireless service, for instance, today, others are 
providing key backhaul, and we want to make sure that they are 
all included as part of this infrastructure that has to be 
leveraged.
    We also believe it is important that we put some minimums 
in the RFP to help ensure that there is a good conversation 
that is going on between rural providers and others who are 
aggregating a team to bid on the nationwide network.
    Lastly, as I mentioned a little bit earlier in response to 
a question, we are also continuing to look at the minimums that 
are happening at each phase of deployment. And we have actually 
upped some of those from our initial draft RFP in the final RFP 
to ensure that rural deployment is first and foremost on folks' 
minds and to be able to deploy quickly in the way that we have 
put forward in the RFP. The way that we think that that can 
best happen is leveraging the infrastructure that is out there 
today.
    Mr. Latta. OK. You touched on it a little bit earlier, but 
I am also interested in hearing what FirstNet has to say 
regarding how you are going to manage the security on mobile 
devices so that other adjacent systems aren't breached. Are you 
looking at technology solutions to ensure that mobile devices 
are authorized and that the access will be restricted?
    Mr. Kennedy. We are. And we are also looking at really 
driving industry to be very innovative in their responses that 
are part of this. We know that identity and credentialing and 
access management and that human factors are often one of the 
weakest links when it comes to a network. And so understanding 
which device is tied to which first responder and also who is 
using it at that particular time is very critical.
    We actually set up an advisory committee within the Public 
Safety Advisory Committee for FirstNet to look specifically at 
this ICAM, the Identity Credentialing and Access Management. It 
is such a huge issue across major agencies today. And also 
making sure that we do it in an innovative way for public 
safety to still make sure that accessing these devices is very 
usable and that they can use it in the environment in which 
they operate.
    One of the unique things about public safety, firefighters, 
for instance, operate with heavy leather gloves and other 
things on, EMS personnel have latex gloves. And being able to 
interoperate and use devices in the harsh environment that 
public safety uses is critical. So it has to be very usable but 
it also has to be very secure, and we are looking at that all 
the way down to the device level.
    Mr. Latta. When you are talking about that let us just 
follow up on the security end of it. What are you finding as 
you are going through all these meetings and with your group 
there? What are you finding? Because this is something that we 
talk about all the time, across the board here.
    When you are talking about cybersecurity how are we going 
to do that and make sure that we don't have some kind of a 
massive emergency and all of a sudden find that they are 
getting hacked or that there is a cyber attack at the exact 
same time?
    Mr. Kennedy. I think we are all finding that cyber is a 
very active process. It is not a one and done solution. We know 
that we have to build it in from the very beginning, but we 
also know that we have to have an ongoing process to deal to 
the evolving threat. And to do that we are maintaining a number 
of key issues as we talked about earlier, leveraging what is 
being done with NIST and PSCR, but also from industry. And I 
think it is critical that we really leverage what is coming out 
of industry, and there is more to be done. There is no one 
silver bullet.
    Mr. Latta. OK. Thank you very much, Mr. Chairman. My time 
is expired and I yield back.
    Mr. Walden. The gentlemen yields back. The chair recognizes 
the gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Chair, for holding this hearing. I 
just want to say my district includes Contra Costa County, part 
of the San Francisco Bay area, and back when we had earmarks I 
got involved with interoperability efforts in that county and 
they were successful. But I have to say I was pretty surprised 
at how difficult it was, how expensive it was to get this done, 
so I am glad you have done all the work that you have been able 
to do. Are you able to learn much from those early attempts at 
interoperability?
    Mr. Kennedy. Yes, we have been. We have been very much 
trying to take the lessons learned on both the land mobile 
radio side of interoperability and now on the LTE side looking 
at both voice and data interoperability. Voice interoperability 
has been a longstanding issue. I personally have had a lot of 
experience in leveraging how do we get these disparate systems 
to work together. Our country has spent a lot of money trying 
to make sure that that occurs.
    One of the unique things about FirstNet and something that 
Congress did as part of this act is making sure that we will 
all be operating on the same spectrum and on the same key 
standards, international standards related to LTE, and I think 
that is really a huge part of making this a success.
    Mr. McNerney. Well, it is clear that consultations with the 
states is an important part of the process. Are you done with 
that phase or are you still in the consultation process?
    Mr. Kennedy. So we have gone out as part of the 
consultation process and met with 55 states and territories so 
far. Many of these states we have had more than one engagement 
with and we are going to continue to engage in 2016 and beyond. 
We don't believe that consultation just has a magic end to it. 
We believe that we will need to continue to consult up until 
state plans and then even during the deployment of the network.
    That consultation is going to get much more specific this 
year in that we are actually going to have consultation task 
teams, and we are also looking to have key executive meetings 
with each state to make sure that key decision makers are 
informed before we get to the state plan process.
    Mr. McNerney. So were the states pretty engaged and 
enthusiastic about this?
    Mr. Kennedy. They were very engaged. And every state has a 
different way of how they approach their different key public 
safety stakeholders, but we were amazed at the amazing turnout. 
Some states had well over 100 and 150-plus people who were 
engaged in an all day consultation session. Many of the states 
even involved neighboring states to make sure that they had 
good cross-communication across states. So a terrific turnout.
    And one of the great things about these state consultation 
efforts was that we learned so much about the unique 
differences that occur in each state. We learned what is very 
important to them. And they also presented use cases, and each 
and every state actually came out and presented use cases on 
major disasters that have either occurred in their state--take 
the state of Minnesota, talked about the I35 bridge collapse--
and what kind of communications could have happened and occur 
if they would have had a broadband public safety network that 
they could have utilized during that kind of a disaster.
    That kind of real-world thought process and discussion that 
was an ongoing discussion throughout that consultation just 
shows you briefly what we had at each and every state, and 
really being able to understand how they operate to make sure 
that the state plan that we can bring forward for that state 
understands their unique needs.
    Mr. McNerney. So how much interest did you see from small 
businesses and carriers in this outreach process?
    Mr. Kennedy. We have seen a lot of interest from both small 
business and carriers. Many of them showed up at different 
consultations in different states. More importantly, huge 
turnouts for our industry days.
    When we released the RFP recently, we actually held a call 
with over 600 participants from industry, both big and small, 
who actually came to that call for a briefing on the RFP 
release. As a part of that process we have actually set up on 
our Web site and on the FedBizOpps Web site, which actually has 
the opportunity for the FirstNet RFP, a teaming portal so that 
small businesses can put themselves out there and their key 
capabilities so that they can help join with teams and make 
sure that they are being seen for what kinds of things they 
could bring to the table.
    Mr. McNerney. Well, thank you.
    Mr. Furth, clearly one of the controversial issues is state 
opt-out. What information would be helpful for the FCC to have 
in order to do the best job in producing opt-out rules?
    Mr. Furth. Well, primarily it will be information that 
relates to the test that is set forth in the statute. But that 
is one of the reasons that we feel it is important to do a 
rulemaking on this process, because that way we can seek 
comment from all interested parties to determine what is the 
information that we will require states to provide us.
    The two-prong test in the statute is simply phrased, but we 
need to make sure that we have a full understanding of what is 
behind those phrases so that states know, if they are making 
the choice whether to opt out or not, what the choices are both 
in terms of what FirstNet has presented them and what they 
would need to present to the Commission if they were to elect 
opt-out.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, sir. We will now turn to the 
gentleman from Illinois, Mr. Shimkus, for questions.
    Mr. Shimkus. Thank you, Mr. Chairman. I want to just follow 
up a little bit with Chairman Walden on the 25-year RFP issue. 
It was 8 years ago that the first iPhone rolled out. And I 
remember, other than Courtney and Darrell Issa, they were like 
the first adopters, now we have not just Apple, but Nexus, 
Samsung, LG, Motorola, HTC. Who does not have one? And I think 
that is the concern of a 25-year RFP locking folks in when the 
tech community can go crazy in a short amount of time. So I 
just wanted to weigh in on that.
    And staying on the RFP questions, we also are concerned 
about we had challenges in 2007 with the D block because--the 
argument was it was encumbered by other issues that cause it 
not to be valued by people who would bid. Some people are 
raising that concern with the RFP. Have you looked at that, Mr. 
Kennedy?
    Mr. Kennedy. We have. We have looked at encumberance and we 
have also looked at how this compares to other auctions both 
past and present that are occurring. The encumberance of many 
of the recent auctions, even theAWS-3 auction and others, many 
of them have some encumberance related to either military 
personnel or other agencies that are still on some of that 
spectrum. We also know that with the broadcast incentive option 
a certain amount of time, 39 months, to be able to be moved off 
of that and some of those key considerations.
    In the public safety case we are talking about 5 million to 
10 million to 13 million first responders and key personnel 
that will be leveraging the network depending on really trying 
to make sure that we meet all the needs of public safety. And 
we know today that the major networks that already exist have a 
huge number of customers. We are talking about hundreds of 
millions of folks out there today. And if we look at similar 
spectrum, similar spectrum that is being leveraged by 
commercial carriers today, 20 megahertz of 700 megahertz 
spectrum is going to be leveraged for capacity, we believe, in 
ways that are still quite valuable and are not over encumbered 
to be able to get great value out of that.
    We have also done a lot of market research and a lot of 
discussions with industry leading up to this and we have seen 
great interest in that spectrum and that they think there is 
value there.
    Mr. Shimkus. Thank you. Let me talk about the penalty 
mechanism real quick. There is a penalty for failing to hit 
these targets. It is our understanding that the targets are set 
by the contractor. If that is the case, do you think that they 
kind of lowball the targets to make sure they meet their 
contractual obligations?
    Mr. Kennedy. There is always the chance that that can 
occur. One of the things that we have tried to do is to balance 
the needs of public safety in making sure that we can ensure 
great adoption by public safety. We put public safety first and 
foremost in both these penalties and also in the objectives 
that are driving the RFP. At the same point we want to make 
sure that they are achievable, and we believe through 
competition and in competition in the RFP that different 
offerers will provide and have to step up to the plate with 
good adoption targets that we are going to compare against each 
other, and I think that is important.
    Mr. Shimkus. And I missed the discussion a little bit on 
PSAPs. I was walking in from another hearing. But we know that 
one of the board members opined about the changing role for 
PSAPs. Does that mean that there is actually discussions by you 
all about functionalities provided by PSAPs or you all 
providing guidance to PSAPs?
    Mr. Kennedy. I certainly think that the enhanced 
functionality of FirstNet is going to provide new and different 
ways of communicating for PSAPs to and from the field to police 
officers, firefighters and EMTs. I do believe that that is an 
opportunity for 911 centers to continue to grow and leverage 
that new technology.
    I will defer some time to David to answer this though from 
the PSAP perceptive in the FCC.
    Mr. Shimkus. That would be great. Thank you.
    Mr. Furth. And in fact we have encouraged 911 authorities 
and PSAPs to get involved with the FirstNet state consultation 
process for precisely that reason that both these elements are 
very interconnected. And we are also very focused on our 
efforts with our PSAP task force and with some of our efforts 
at the Commission to advance Next Generation 911 in making sure 
that the PSAPs evolve in parallel with the intended deployment 
of the FirstNet network so that there will be, in fact, true 
interoperability all across.
    Mr. Shimkus. Well, thank you. Because as you know, Ranking 
Member Eshoo and I, we have been really focused on the PSAPs' 
evolution over the time and I am sure we will be looking at it 
closely to make sure that we are not stumbling over each other 
but were very helpful in providing the network that we are all 
looking for.
    Mr. Furth. And if I might add, we have also--I don't know 
if T.J. mentioned it--but they have actually hired a Next 
Generation 911, a 911 specialist that will be working with us. 
We were going to have a meeting, but I think it was postponed 
by the snowstorm. But we are looking forward to starting that 
relationship very shortly.
     Mr. Shimkus. Thank you.
    Mr. Walden. OK. We will turn now to the gentlelady from New 
York, Ms. Clarke, for five minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our ranking member. Good to see you again, Mr. Kennedy. I have 
a couple of questions and it has to do with the whole opt-out 
piece, because you mentioned that this construct is geared 
towards a state opting out.
    Have you taken into consideration perhaps a part of a 
jurisdiction of a state, and have you also taken into 
consideration maybe a grouping of states so that there is a 
tri-state opt-out? And what would be the tipping point for a 
national system network if the opt-out provision is utilized by 
50 percent of the jurisdictions in the nation, right. How have 
you envisioned managing cybersecurity given the variability of 
systems that can be established, and what would be the sort of 
management maintenance standards that could be put in place to 
make sure that we have a standard across the board for robust 
and impenetrable network, if you will?
    Mr. Kennedy. A number of very good questions. First off, I 
think on the opt-out question the act is fairly prescriptive on 
what it says on the opt-in/opt-out decision related to the 
radio access network portion of the network. The good news is 
the core network and the nationwide backbone of this network 
are nationwide, and they are something that everyone will need 
to connect into and leverage both the integration, the network 
policies that we put forward, and in an opt-out scenario they 
would work both through the FCC and the NITA process and 
FirstNet to make sure that they will be interoperable. And I 
think that that is absolutely critical to make sure that we 
have a successful network.
    As far as different sizes and scopes, the act did not 
anticipate either a substate or multi-state way of doing that. 
And so the process we have to go through is very much state 
driven by each governor having that opportunity to make that 
decision about that radio access network.
    Ms. Clarke. So where you may have a tri-state authority 
that has the infrastructure already in place for whatever they 
do in terms of deployment of emergency, they may see it 
necessary to make sure that their interoperability is at a 
certain standard. Couldn't they come in with an opt-out plan 
from a tri-state perspective?
    Mr. Kennedy. Right now the plans are very much driven at a 
state-by-state level based upon that governor decision. We have 
seen states certainly being very open in talking to each other 
and sharing best practices and talking about future solutions. 
The good news, because we will be operating all under the same 
network policies, not only will those three states be 
interoperable, but all 50 states, five territories and the 
District of Columbia have to be interoperable. So we all will 
be operating on the same standards. We will all be operating 
off the same core network for public safety users. This is a 
critical baseline to make sure that we maintain that 
interoperability.
    Ms. Clarke. So it may be just a matter of utility then what 
type of instruments are being used, and that is where the 
vulnerabilities could ultimately lie when you are talking about 
cybersecurity. So what, are we looking at a standard in terms 
of--you are not going to govern what companies they decide to 
go with if they opt out, but not all companies are equal 
either. So how do we get to that floor where--because anyone 
who is vulnerable in the system, whether it is an instrument or 
something else, makes the entire system vulnerable, right?
    Mr. Kennedy. Absolutely. And your point is valid that the 
weakest link is always the issue, and often we see that as even 
a human link. To your point about being impenetrable, I think 
most impenetrable networks are also not very useable, and so we 
also have to have both pieces of that to make sure that we are 
having great security and also good use for public safety 
needs.
    One of the things we have done is set forward a number of 
key elements within our cybersecurity part of the RFP to make 
sure that we are driving those cyber best practices. And we are 
really leveraging industry to respond to that RFP and anything 
that would come in from an opt-out perspective would have to 
meet or exceed those same standards. So we believe that this is 
going to ensure that we have ongoing cybersecurity, and also 
that we have as part of our partner a key security operations 
center. Security is dynamic. It is not something that is static 
and doesn't change.
    Ms. Clarke. Absolutely. And any company that has a weak 
link within them, so, right, could be human, could make the 
infrastructure vulnerable. So I just want to try to look at 
maintenance as well and how we build that standard out. I yield 
back, Mr. Chairman.
    Mr. Latta. Well, thank you very much. The gentlelady yields 
it back. And the gentleman from Kentucky is recognized for 5 
minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for the 
witnesses for being here. And Mr. Furth, in your testimony you 
mentioned that the public notice regarding relocation of 
current users of FirstNet spectrum. When can the committee 
expect to see a resolution?
    Mr. Furth. We released that public notice in November. We 
obtained comments from interested parties in December. FirstNet 
submitted an ex parte to us a couple of weeks ago, so we are 
working very actively on that again cognizant of FirstNet's 
timeline because they are setting up a funding program and they 
have given us a requested date for when they would like to see 
the spectrum cleared. So with all of those elements in place I 
think that we can move forward quite quickly to reach a 
resolution on that.
    Mr. Guthrie. That sort of answered my second question. I 
was going to ask Mr. Kennedy if your timeline is, if FirstNet 
is able to move forward with the timeline that you offer. But I 
guess you all have agreed upon a date, and you are going to 
meet the date they have agreed upon? I guess that is the 
question.
    Mr. Furth. I wouldn't say we have agreed upon a date. They 
have given us a date. Their request is that the licenses be 
modified so that any incumbent could not stay on the band past 
July of 2017 without FirstNet's consent. But they have also set 
up a funding program and a relocation program consistent with 
that timeline. And as T.J. said, I think their intent is to try 
to move as many of those incumbents as they can off the band 
well in advance of that date.
    So what they are asking us to do is simply to make the 
necessary licensing changes that would commemorate the fact, 
licensees are no longer entitled to operate on the FirstNet 
spectrum. There is other spectrum in the 700 megahertz band 
that is available for them in the narrow band spectrum and so 
that is where they would be reassigned to.
    Mr. Guthrie. OK. So my question was how will this timeline 
impact your ability to move forward, but since you are working 
that out so----
    Mr. Kennedy. Yes, our suggestions and requests that have 
been made to the FCC are still working through the final NPRM 
process, but so far we believe that we are in sync in what we 
have discussed with them and look forward to that happening.
    Mr. Guthrie. Are there any other FCC proceedings or FCC 
actions that FirstNet needs to be resolved before you can move 
forward?
    Mr. Kennedy. Not related to spectrum relocation in the 700 
megahertz band.
    Mr. Guthrie. OK, thanks. And also Mr. Kennedy, this is a 
different topic. The crux of the RFP is the ability of the 
winner to monetize the spectrum. Can you elaborate on the 
quality of service, priority and preemptive parameters for 
public safety traffic on the network and how this is factored 
into your valuation of the spectrum?
    Mr. Kennedy. For us the key quality of service parameters 
that are required by public safety to be able to operate are 
something that both our technical team in Boulder as well as 
the Public Safety Communications Research Lab have been testing 
of equipment for years. It is something that we consider to be 
table stakes for what must occur to be able to have public 
safety and commercial users operating on the same spectrum.
    And so having that ability to have preemption and to have 
priority and provide that mission critical quality of service 
that we are looking for public safety is something we are 
requiring of all offerers. Our technical team will be greatly 
involved in the evaluation of those proposals. It is a key 
thing that we have to have to make sure that this network will 
provide that priority and preemption whenever it is needed.
    Mr. Guthrie. So you have to make sure the winner is 
financially successful. That is what its base stability to move 
forward is. But also, so how does FirstNet plan to ensure that 
the winning bidder only gains access to the market at 
competitive rates? I know part of the previous question was the 
winning bidder and they have to be financially viable to 
monetize the system. What about FirstNet's ability to make sure 
they maximize financial ability?
    Mr. Kennedy. Yes, as far as maximizing the bids that come 
in and that we receive, we believe by having an objectives 
based procurement that allows innovative solutions and industry 
to come together with the best solutions. And through 
competition we believe that we will make sure that public 
safety gets the ultimate best deal that can come forward. 
Competition is by far the best thing that we can have to ensure 
that there is not value being left on the table that is not 
being leveraged by public safety to get the best network 
possible.
    Mr. Guthrie. Thank you. And I am meeting with some of my 
public safety people today. So I know it is important in 
Kentucky, it is important everywhere, and I appreciate the work 
you guys are doing.
    Mr. Kennedy. Thank you.
    Mr. Guthrie. And I yield back.
    Mr. Latta [presiding]. Thank you. The gentleman yields 
back, and the chair now recognizes the gentleman from Texas for 
5 minutes.
    Mr. Olson. I thank the chair, and welcome Mr. Kennedy and 
Mr. Furth. I am from the greater Houston area. We have seen our 
fair share of natural disasters, the worst disasters in 
American history. For example, the worst hurricane. Galveston 
1900, over 6,000 people, the low end, maybe 8,000 were killed 
in 24 hours. The worst industrial accident, Texas City 1947. A 
ship exploded, almost 600 people were killed. Every firefighter 
except for one died trying to put out that fire.
    A mere tropical storm, Claudette, set the American record 
for rainfall in a 24-hour period in 1979 in the city of Alvin, 
Texas. Forty three inches of rain fell within one day. I was 
living 10 miles away from Alvin, Texas when that happened, 
staying up all night with my dad preparing for our first floor 
becoming the wading pool we never dreamed of having down below.
    But those problems we face in Texas are much different than 
problems they face in California, North Dakota, and 
Pennsylvania, for example. FirstNet must be able to adapt to 
those challenges, different challenges. It can't fail, 
especially in a time of crisis. In Houston we say failure is 
not an option.
    My first question to Mr. Kennedy is, in the worst case 
scenario how should we measure failure with regard to the RFP? 
What is failure? When does it fail? How do you measure that?
    Mr. Kennedy. As far as the network or the RFP itself?
    Mr. Olson. RFP itself and the network. Throw them all in 
there.
    Mr. Kennedy. OK. From the network perspective, and I am 
just going to go off of your explanation on being mission 
critical and public safety grade. I think it is very important 
that everything we do is trying to focus on making sure that we 
can meet that public safety grade capability. What we have done 
with the objectives you will see that public safety grade and 
that reliability and resiliency are key objectives that are 
part of the RFP and we will be measuring what is coming in in 
those RFP responses.
    Also, it is absolutely critical as we go forward that we 
know that just terrestrial networks and just hardening won't 
solve every problem, so the network design is going to be 
looked at for what kind of reliability and redundancy by having 
capacity that will allow us to have ongoing network capability 
after a disaster hits.
    Also, we have leveraged our Public Safety Advisory 
Committee to look at public safety grade and make 
recommendations. Your point about different parts of the 
country, the kinds of hardening that they need in Florida are 
sometimes different than what they need in Texas versus Alaska, 
different kinds of issues. Some parts of the country have 
issues with earthquakes, other parts have issues with 
hurricanes and flooding. And so those kind of issues really 
demand a different type of network infrastructure in different 
parts of the country.
    Also, it requires other ways to reconstitute a network. 
There are some things when we look at a tornado and a direct 
hit that there is no building of a cell tower that necessarily 
will----
    Mr. Olson. Joplin, like Mr. Long's district. Joplin, 
Missouri, direct hit. Yes.
    Mr. Kennedy. Joplin is a great example of that. And so you 
have to have other things that can reconstitute a network 
during that kind of very focused disaster, and that comes down 
to leveraging deployables. Deployable networks have been 
something that we have looked at both for major events, but 
also for response during that kind of reconstitution of a 
network.
    There are aerial platforms and other things that are now 
having the ability to bring networks to where networks have 
been decimated very quickly, and also having the ability like 
we have seen with the New Jersey project to be able to look at 
how do we have deployable networks after a storm like a 
Hurricane Sandy, and how can that go ahead and reconstitute a 
network where a network has been wiped out.
    So it is not just the permanent physical infrastructure, it 
is also having a network and a network operations center and 
that design built in, so that we are able to prepare for and 
respond to those emergencies in every state and have assets 
that could actually move between states when needed to make 
sure that they are responding to those big events.
    Mr. Olson. You get all these RFPs, you look at them and you 
go, man, these don't hit these targets. They are short, they 
are falling short, doesn't handle the needs, it is a failure. 
What is Plan B? How do you move forward from that? Like Apollo 
13, how did you bring those guys home? What is Plan B if there 
is a failure, proposed or viable, any plan for that or you just 
going to wing it after that happens?
    Mr. Kennedy. No, no. We certainly have considered that 
there can always be issues with RFPs. There could be amendments 
that are issued to deal with a deficiency or something that 
will not work. Part of the thing we are doing right now is we 
are waiting for questions to come in from potential offerers. 
Questions will often drive to make sure whether we have hit the 
right targets or whether there are things or issues that would 
require changes.
    We are very open to knowing that we need to be agile and be 
able to respond to what comes back, and so we have left those 
options open. At the same point, we are trying to move with 
urgency to make sure that this network gets built and gets in 
the hands of public safety.
    Mr. Olson. Thank you, I yield back.
    Mr. Latta. Thank you. The gentleman yields back, and the 
chair recognizes the gentleman from southeast Ohio for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And I also want to 
thank the panel for being with us today. I serve an area of the 
nation that struggles with network access and availability, 
rural Appalachia, so these are topics that are very much a 
concern to me.
    Mr. Kennedy, this subcommittee is working on a bill to help 
streamline access to rights of way so that communities will see 
both better broadband services and more competitors. We know 
the more competition the lower the cost, the quality goes up, 
we know how that works. Is it safe to say that the winner of 
the contract is likely to need to deploy new infrastructure to 
satisfy the objectives of the RFP?
    Mr. Kennedy. First off, I encourage the efforts that you 
are doing because I think that will help both FirstNet and 
wireless providers nationwide to provide better broadband 
service to the entire country. I think specifically we believe 
that the majority of this network will be initially deployed on 
existing infrastructure, but there will be a need to fill in 
some holes which could mean some additional sites that have to 
be made. So it is a mixture, but a lot of it will be leveraging 
existing infrastructure where it already takes place with only 
building when there is no existing infrastructure that can 
serve that need.
    Mr. Johnson. OK. So do you believe that streamlining access 
to rights of way could facilitate the deployment of the network 
especially in rural areas either directly or indirectly? Do you 
think that will help?
    Mr. Kennedy. Yes, I do.
    Mr. Johnson. OK, great. Great. Also, Mr. Kennedy, FirstNet 
has established 16 key objectives which the offerers must meet 
in its RFP. Among the set of 16 what are some of the most 
important objectives FirstNet will be considering when 
reviewing the submitted proposals, and can you give us any idea 
as to how the winning bidder will be decided? In other words, 
pull back the cover and give us the secret formula.
    Mr. Kennedy. As you know, with all open and competitive 
procurements there are rules and regulations in the evaluation 
thereof. And so from that I think it is really important that 
every offerer look at all 16 objectives.
    As you have mentioned, there are some objectives that we 
have talked a lot about here today, cybersecurity, looking at 
the public safety grade, looking at coverage, all those kinds 
of things that are so obvious, looking at applications and 
devices, but they are all important. We really want to see how 
each and every offerer can provide the best solution 
competitively across that entire gamut of the 16 objectives.
    Mr. Johnson. Yes.
    Mr. Kennedy. One of the things that we think we have done 
very well is those same 16 objectives have remained the same 
since April of 2015, and have remained virtually unchanged 
since September of 2014 when we put out the first 15 
objectives. And it has given industry a lot of time to ask 
questions. It has given public safety and states a lot of time 
to discuss are those the right objectives and will they help 
meet the network that they really want to see?
    So we believe that we have the right 16 objectives. We 
believe that industry understands what those objectives really 
mean. And at the same point we are not telling them how to 
respond individually. We are telling them to do the best that 
they can to meet those objectives in a cost effective and 
sustainable way.
    Mr. Johnson. Have you communicated to the offerers any idea 
of the weighting? I mean, are any of the objectives weighted 
more than others? For example, accelerated speed to market 
versus financial stability, or device ecosystem versus life 
cycle innovation? Have you got any weights in there and do they 
know what they are?
    Mr. Kennedy. Yes. There is a specific writeup in Section M 
of the RFP under the evaluation factors, and we really drive 
any offerer to read that very carefully. It is specifically 
written and approved by our contracting officer which tells 
which elements are more important than other elements.
    Mr. Johnson. OK. All right, based on the input that you 
have received from all of the various stakeholders, have any of 
the objectives emerged as the main target? Is there one 
objective that you are focused on more than any of the others? 
You have probably pretty much answered that. They are all 16 
pretty important.
    Mr. Kennedy. All 16 are very, very important to public 
safety.
    Mr. Johnson. OK. All right. Well, thank you. And with that 
I yield back, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back, and the 
chair now recognizes the gentleman from New York for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I find this 
interesting, a couple things, and I am going to look for a 
little input here only because it seems like the train has 
already left the station here.
    But I was the county executive of Erie County back from 
2008 through 2011. The first thing I found when I came to 
office in New York State, in my county, Erie County, the 
largest upstate county, we had 22 PSAPs, 22 PSAPs in one 
county. Pretty much all our first responders are volunteer fire 
and the like. They were on using radio's low band. We pretty 
much had standardized on 400 megahertz.
    And the first thing I walked into was SWN, the state 
wireless network in New York. What a debacle. I was the one 
that killed it, because they were going to move everyone from 
400 to 800 megahertz. And I met with all the first responders 
and they said we don't have any money. Hey, we are still on low 
band. We are hanging our radios out the door as we are driving 
up and down hills. And we had moved to 400. They said, hey, 
show me the dollars. Where are the dollars to go from 400 to 
800 if it would even work?
    They weren't there so I pulled our county out, the largest 
upstate county in New York, and a month later SWN was dead in 
New York, because if Erie County at the far western part 
wouldn't participate it wasn't going to go. And I felt very 
good about that.
    So now here we are. It is 5, 6, 7 years later talking about 
FirstNet, and I can't disagree with the thought process. But I 
would say again, maybe thank God we pulled out of the 800 
megahertz they gave in New York because that would be obsolete. 
And, but the billions, and I do use that, weren't there. 
Because again, New York, especially who are all volunteer fire 
people, 22 PSAPs in one county. That is the way New York is. In 
fact, the crazy thing is the land lines go to the PSAPs and the 
cell phones go to a centralized one. It is insanity but that is 
what it is.
    So I guess I just kind of ask the question. Dollars and 
cents matter a lot. Property taxes in New York actually pay for 
the volunteer fire companies. We have a tax cap because we are 
the highest taxed and most regulated, least business-friendly 
state in the nation and we keep losing people, and we are now 
the fourth largest state, no longer the first, second, or 
third.
    Tell me about the dollars and cents. If I am bidding on 
this I don't know that I am going to have any customers in New 
York because no one has got any money. The state doesn't have 
any money. The counties don't have any money, so is that a 
concern? Is it a worry? Are we just charging down the road? But 
talk to me a little bit about if I am a bidder aren't I worried 
about am I going to have any customers?
    Mr. Kennedy. So I will answer that and then I will defer 
the PSAP question to David to follow up on that. Specifically, 
I do believe based upon our consultation across 55 states and 
territories over the past year that volunteer fire and 
volunteer emergency medical services are eager to leverage the 
FirstNet network. A couple of things in the model that we have 
laid forward is there is not capital expenditure. There is not 
the hundreds of millions of dollars to lay out for 
infrastructure in an opt-in scenario where that is being 
provided. The network would be provided.
    They would make an individual decision by each agency, and 
even by a volunteer firefighter as an individual, if they would 
like to buy that particular cellular service at a competitive 
rate that would allow them and enable them to have inoperable 
voice, video and data communications across their own fire 
department and also with neighboring and other agencies, both 
police, fire and EMS, and even across state lines. And having 
that interoperability is something that we have heard even from 
volunteers is a critical issue in having the ability to be able 
to communicate with others.
    One of the things when we go out to rural parts of the 
country we often ask: how many of you carry a cell phone today, 
either personal or for work? How many of you would leverage a 
FirstNet device if you had the ability to leverage that either 
paid for by your agency or not? And we have received a very 
favorable response.
    We also believe that the lower cost commercial like devices 
or hardened commercial devices that have the right case or 
other things around them will provide some very cost effective 
opportunities for volunteer firefighters and others to leverage 
in addition to the radio systems that they already have. We 
know that there has been a lot of investment in maintaining 
systems. We are a true believer that you should maintain your 
land mobile radio systems. They are key components of the 
public safety ecosystem. But at the same point we think this 
brings a different and new opportunity.
     And with time running out, I want to turn it over to David 
on the PSAP part of the question.
    Mr. Furth. Well, I was struck by what you said about 22 
PSAPs in the county, and that is something that we see around 
the country. There are many different arrangements in terms of 
how PSAPs are structured from state to state and county to 
county, and that is a state and a county decision.
    What we are trying to do as we all face the challenge of 
moving to Next Generation 911 is to provide a set of tools and 
options for Erie County and for every other state and county in 
the country for how to configure those PSAPs with Next 
Generation technology and with protection for cybersecurity. It 
makes no sense to try to individually defend each of those 22 
PSAPs.
    Mr. Collins. You can't defend them. You can't.
    Mr. Furth. Not only can you not afford it, even if you 
could, it wouldn't be the most effective way to do it. So in 
fact, the recommendations that our task force has come up----
    Mr. Collins. My time has run out, but just remember there 
are people who work in each of those 22 PSAPs. Hence, you 
understand the pressure of not eliminating those 22 PSAPs which 
I tried to do as county executive.
    I am going to watch this with a lot of interest. I thank 
you for your testimony, and you have also given me a reason to 
sit down with my first responders in Erie County and get some 
input from them, which I have not done prior to today's 
hearing. So thank you for bringing this up. I yield back.
    Mr. Latta. The gentleman's time has expired, and the chair 
now recognizes for five minutes the gentleman from Missouri.
    Mr. Long. Thank you, Mr. Chairman. Mr. Kennedy, when 
explaining the payment of funds by FirstNet, or to FirstNet by 
the contractor, you state the minimum payments reflected in the 
request for proposal may be higher if driven by competition, or 
if the partner wants FirstNet to take on more responsibility 
for key functions. Could you explain that statement? And does 
that mean that after the contract is awarded the contractor 
could change the terms of its performance, do less by paying 
FirstNet more?
    Mr. Kennedy. That particular element is geared to make sure 
that competition could drive payments that are above the 
minimum, first of all, all by itself. Number two, we have laid 
out in the objectives what are the roles of FirstNet and what 
are the roles of the proposers that are offering the service.
    If as part of that they would like to make assumptions that 
FirstNet take on additional roles, they should calculate into 
the fact that their payment would need to be higher to cover 
the cost of that role. So at the end of the day it is 
sustainability of the overall network. There is not additional 
funding mechanisms from Congress that would pay for that in a 
change-order process, and there is also not a way to shift 
those responsibilities from the contractor to FirstNet without 
taking that into account when they look at their overall 
economic offering.
    Mr. Long. So that has all been done up front before the 
contract is awarded.
    Mr. Kennedy. Correct.
    Mr. Long. They can't change later.
    Mr. Kennedy. No, the goal is to have that all as part of 
that process before award.
    Mr. Shimkus. OK. How did FirstNet arrive at the 15 percent 
target for partnerships with rural telecommunications 
companies, and does the 15 percent refer to geographic or 
population coverage?
    Mr. Kennedy. Sure. There are actually two elements with the 
coverage versus the 15 percent of rural infrastructure 
providers. So I will go through currently in the RFP at IOC2 
there would be 20 percent of rural coverage, IOC3 60 percent, 
IOC4 80 percent, IOC5 95 percent. That particular percentage is 
of the rural build-out milestones. So it is not necessarily 
just geographic, it is what milestones will actually be in that 
state plan to be very state specific to each part of that.
    The other element is we added, based upon consultation and 
the responses we received to the draft RFP, an additional 
requirement. There was no requirement in the draft RFP for a 
minimum percentage to be from rural telecom or rural 
infrastructure as part of that build-out. We added a 15 percent 
minimum, to your 15 percent question, to ensure that----
    Mr. Long. Fifteen percent of what though? I am still a 
little confused on what----
    Mr. Kennedy. Yes. The 15 percent is that they are 
leveraging rural infrastructure for that rural build-out 
versus, for instance, other infrastructure or commercially 
available infrastructure. They are leveraging that from rural 
telecoms or rural infrastructure providers.
    Mr. Long. OK. And I understand FirstNet's excess capacity 
is a key to the financial sustainability of the network. How 
does FirstNet plan to ensure that the winning bidder only gains 
access to the spectrum at a competitive rate? FirstNet 
shouldn't accept a lowball offering for its spectrum under any 
circumstances even if the proposals of other elements are 
strong, I wouldn't think. In other words, for the sake of 
FirstNet's financial stability and solvency, how do you plan to 
ensure that FirstNet fully monetizes its spectrum?
    Mr. Kennedy. The absolute best way is through competition. 
And in part of having that objectives based procurement is we 
expect to have more competition than if it was overly specific. 
One of the other things is that we think by driving industry to 
be able to leverage how they would best deploy and leverage 
partners and bring together the best assets to deploy this 
overall network that they will have the most synergy to give 
public safety more of what they deserve in a broader network 
that will really give public safety the best deal.
    We believe that competition is absolutely critical to make 
that happen, and we also believe that going down a best value 
approach just looking at what is being provided as the network 
in addition to the financial side of the equation.
    Mr. Long. So how do you plan to ensure that the winning 
bidder only gains access to the spectrum at a competitive rate, 
coming back to my original question.
    Mr. Kennedy. So part of that is really trying to drive that 
we have multiple bidders, and we believe that the approach that 
we have taken should drive multiple bidders that will come to 
the table to compete with each other.
    Mr. Long. OK. Thank you. Mr. Chairman, I yield back.
    Mr. Latta. Thank you. The gentleman yields back, and the 
chair now recognizes the gentleman from Florida for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. And I want to thank both Mr. Kennedy and Mr. Furth 
for their testimony.
    As a former chairman of the Emergency Preparedness, 
Response, and Communications Subcommittee under Homeland 
Security, this issue I follow very closely. I have reached out 
to our friends at Florida Highway Safety and Motor Vehicles, or 
the state point of contact for FirstNet, termed FloridaNet, in 
our state. They are excited with the current direction of the 
working relationship between the state and the federal 
entities.
    Mr. Kennedy, first question. It seems that with the 
deployment of FirstNet and the ever-growing dependency of 
public safety on wireless broadband, the need for interference 
protection and remediation will increase in importance. 
Chairman Wheeler recently reduced the size of the FCC's 
Enforcement Bureau's field presence, the function of the FCC 
that handles interference to public safety communications. Did 
the FCC or its consultants approach FirstNet to discuss the 
threat, if any, of downsized FCC field operations to FirstNet's 
operation today as well as going forward as the network 
expands? Again, for Mr. Kennedy.
    Mr. Kennedy. We have not had recent discussions that I am 
aware of about specific changes in the size of the workforce 
that is focused on that. I will be more than happy to have--I 
don't know if David has any follow-up.
    Mr. Furth. I am not aware of whether there were contacts 
with FirstNet. I can certainly find out. We can check with the 
Enforcement Bureau.
    Mr. Bilirakis. Please do so, yes. We would like to see if 
there were any notes or many meetings, what have you, with 
regard to that. I think it is so very important.
    Mr. Kennedy, how would you ensure that the spectrum is used 
primarily for public safety and not at the expense of public 
safety? Again, please clear this up, again the unique RFP. 
Clear that up for me. Are there safeguards or mechanisms in 
place to guide the use of the spectrum? How can we ensure that 
the spectrum we have set aside is used to its fullest 
capability, of course, knowing that this 25-year relationship 
will evolve over time with technology and advancements?
    Mr. Kennedy. We believe the incentives are aligned both for 
public safety and the offerer to build a network that is very 
robust in both coverage and in capacity. We believe that these 
networks are not static, that they will continue to add 
capacity over time. It is something we are seeing very common 
today with networks, is they want to leverage that very 
valuable spectrum as much as possible to continue to add 
capacity, sometimes in rural areas, certainly in highly 
populated areas. So we believe that the capacity needs for 
public safety will be met.
    We do believe that having the ability to have priority and 
preemption across the entire network is one way to ensure 
during not just every day operations, but during major 
disasters like we discussed earlier in the hearing that those 
things will certainly be able to be addressed in those big 
emergencies due to that capacity to have priority and 
preemption across the entire spectrum of the network.
    Mr. Bilirakis. Very good. Very good. Third question for Mr. 
Kennedy. As you know, Florida is a large, flat state with major 
ports and unique public safety challenges. Can you describe how 
my rural constituents will benefit to the same extent as my 
constituents that live in the Tampa Bay area, metropolitan 
areas, from this public safety broadband network?
    Mr. Kennedy. I think rural constituents in public safety 
will benefit from that enhanced coverage in having the 
capability to have coverage where they need it and where they 
respond on a regular basis. One of the things we very much 
focused on during our data collection process and during our 
state consultation efforts is trying to make sure we understand 
where 911 responses are, where the calls are coming in from, 
where the public safety stations are and how they respond to 
those calls.
    So if we are looking at everywhere from where public safety 
sits before a call, where they respond on highways, freeways, 
county roads and other locations and also where the incidents 
are, every state responded to that differently based upon 
different data that they could present and put forward.
    But we have actually placed all of that data into a reading 
room that you can access through the FirstNet Web site to make 
sure that all potential offerers understand the needs of rural 
constituents and understand where those calls are so that they 
have the ability to really plan for those needs. We also 
believe that having a very competitive option to be able to 
provide service and have that known capability for priority and 
preemption will ensure that public safety will want to leverage 
this in rural areas as well. But that additional coverage is 
really a huge part of that in having the public safety 
application ecosystem.
    Many rural departments are very small. If we go to very 
large departments that have 30- or 40,000 members, they 
certainly have access to unique public safety applications and 
tools and wireless tools today. But one of the great things 
about having a nationwide ecosystem is those same tools can be 
made available to very small rural departments and allowing 
them to leverage that application innovation that is occurring.
    Mr. Bilirakis. Very good. Sir, do you have anything else to 
add? Mr. Furth?
    Mr. Furth. No, thank you.
    Mr. Bilirakis. OK, very good. Thank you very much. I yield 
back, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back. And seeing 
no other members to ask questions, I would just like to say on 
behalf of the chairman of the subcommittee the gentleman from 
Oregon, and the ranking member the gentlelady from California, 
and myself, we appreciate your testimony today and for the 
answers you provided the subcommittee. And if there is no other 
business to come before the subcommittee today, we will stand 
adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
